Attorneys admitted in
California, New York,
Texas, Pennsylvania, and
Maine

Doniger / Burroughs Building
603 Rose Avenue
Venice, California 90291
Doniger / Burroughs NY
231 Norman Avenue, Suite 413
Brooklyn, New York 11222

Sender’s contact:
scott@donigerlawfirm.com
(310) 590-1820

December 23, 2019
Mr. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Gold Value International Textile, Inc. v. Sanctuary
Clothing, LLC; et al., Case No. 19-708

Matter:

Blanket Consent to Amicus Curiae Filings

Dear Mr. Harris,
The undersigned are counsel of record for the parties to this appeal.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States, the Petitioner,
Gold Value International Textile, Inc., hereby grants blanket consent to the filing of amicus curiae briefs in
support of any party (or no party), both prior to the Court’s consideration of the petition for writ of certiorari,
and, if certiorari is granted, in the case before the Court at oral argument.
And Sanctuary Clothing, LLC, and the other responding parties, hereby grant blanket consent to the
filing of amicus curiae briefs in support of any party (or no party), to the extent they are filed prior to the
Court’s consideration of the petition for writ of certiorari.
Sincerely,
By:

/s/ Scott Alan Burroughs
Scott Alan Burroughs, Esq.
For Petitioner

By:

/s/ Jessica S. Rutherford
Jessica S. Rutherford, Esq.
For Responding Parties

1
603 Rose Avenue / Venice, California 90291
Telephone: (310) 590-1820 / www.donigerlawfirm.com

